                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: A12060041                                                                      Page 1 of 1



                 OIG received an allegation of plagiarism in a proposa1. 1 The allegedly copied text was in
          a supplementary portion ofthe proposal written by two collaborators2 of the PI3 and was taken
          from a paper authored by one of the collaborators. Copying text from one's own work is not
          considered plagiarism by NSF. Therefore, the allegation was not substantiated.

                    Accordingly, this case is closed.




         2




NSF OIG Form 2 (11102)
